No.

IN THE SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2020

MICHAEL CHRISTOPHER LAIRD,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

APPENDIX TO
PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

*DANIEL DONOVAN
Attorney at Law
P. O. Box 6573
Great Falls, MT 59406
dan@danieldonovanlaw.com
Telephone: 406.868.3753
*Counsel of Record

APPENDIX A
MEMORANDUM DECISION
OF THE
UNITED STATES COURT OF APPEALS
FOR THE
NINTH CIRCUIT
United States of America v. Michael Christopher Laird,
No. 19-35860 (9th Cir. October 13, 2020)

Case: 19-35860, 10/13/2020, ID: 11855522, DktEntry: 33-1, Page 1 of 3

FILED

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

OCT 13 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,

No.

Plaintiff-Appellee,

19-35860

D.C. Nos.

4:19-cv-00018-BMM
4:18-cr-00048-BMM-1

v.
MEMORANDUM*

MICHAEL CHRISTOPHER LAIRD,
Defendant-Appellant.

Appeal from the United States District Court
for the District of Montana
Brian M. Morris, District Judge, Presiding
Submitted October 7, 2020**
Seattle, Washington
Before: GRABER and W. FLETCHER, Circuit Judges, and FREUDENTHAL,***
District Judge.

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).
***

The Honorable Nancy D. Freudenthal, United States District Judge for
the District of Wyoming, sitting by designation.
1

A1

Case: 19-35860, 10/13/2020, ID: 11855522, DktEntry: 33-1, Page 2 of 3

Michael Christopher Laird appeals the district court’s denial of his motion
under 28 U.S.C. § 2255. We have jurisdiction under 28 U.S.C. §§ 1291 and 2253,
and we affirm.
In his criminal case, Laird pleaded guilty to possession with intent to
distribute 50 grams or more of methamphetamine and was sentenced to 120
months’ imprisonment. He timely filed a § 2255 motion asserting ineffective
assistance of counsel with respect to his competency and plea. The district court
denied the motion on initial review and certified appealability of both issues.
On appeal, Laird argues he was entitled to an evidentiary hearing on his
habeas motion to determine competency. Laird, however, waived the right to
collaterally attack on grounds other than ineffective assistance of counsel. We
consider his competency issue despite the procedural default because he argues
that his plea was unknowing and unintelligent, see Garza v. Idaho, 139 S. Ct. 738,
745 (2019) (“[D]efendants retain the right to challenge whether the waiver itself is
valid and enforceable . . . .”), and that he is “actually innocent,” Bousley v. United
States, 523 U.S. 614, 622 (1998) (noting that a defendant may raise a procedurally
defaulted claim on habeas if he demonstrates actual innocence).
The district court properly determined the § 2255 motion without a hearing
because Laird did not raise “sufficient facts to create a real and substantial doubt as
to his competency.” Deere v. Woodford, 339 F.3d 1084, 1086 (9th Cir. 2003), as
2

A2

Case: 19-35860, 10/13/2020, ID: 11855522, DktEntry: 33-1, Page 3 of 3

amended on denial of reh'g (Oct. 2, 2003). The transcripts reflect that Laird’s
counsel read the plea agreement to him and that he understood his plea and the
proceedings. Neither does Laird present new evidence on appeal that would “raise
a good faith doubt.” Id.
Laird next asserts ineffective assistance of counsel in pleading guilty when
he was actually innocent of the minimum drug quantity for 21 U.S.C.
841(b)(1)(A). We review de novo. Heishman v. Ayers, 621 F.3d 1030, 1036 (9th
Cir. 2010) (per curiam). We conclude that Laird suffered no prejudice. Strickland
v. Washington, 466 U.S. 668, 689, 694 (1984). The government offered to prove
that Laird sent a 1.7-pound package, and the recipient estimated it contained 50-60
grams of methamphetamine. The next day, only 46.4 grams were found on Laird’s
companion, but this does not obviate the estimate of what Laird sent. Because that
was a sufficient factual basis to accept his plea, Laird did not allege facts inferring
actual innocence or that his lawyer’s advice was unreasonable. Because the record
conclusively showed Laird was not entitled to relief, denial on initial review was
proper. 28 U.S.C. § 2255(b).
AFFIRMED.

3

A3

APPENDIX B
CONSTITUTION
OF THE
UNITED STATES
AMENDMENT V

FIFTH AMENDMENT
No person shall be held to answer for a capital, or otherwise infamous crime, unless
on a presentment or indictment of a Grand Jury, except in cases arising in the land or naval
forces, or in the Militia, when in actual service in time of War or public danger; nor shall any
person be subject for the same offence to be twice put in jeopardy of life or limb; nor shall
be compelled in any criminal case to be a witness against himself, nor be deprived of life,
liberty, or property, without due process of law; nor shall private property be taken for public
use, without just compensation.

B1

